Appendix

Case: 19-55317, 05/11/2020, ID: 11687282, DktEntry: 24, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
MAY 11 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

JUSTIN KIRK GRAVES,
Petitioner-Appellant,
v.
DAVID SHINN, Director, Warden, United
States Penitentiary, Victorville,

No.

19-55317

D.C. No.
5:18-cv-01087-JVS-SP
Central District of California,
Riverside
ORDER

Respondent-Appellee.
Before:

FERNANDEZ, SILVERMAN, and TALLMAN, Circuit Judges.

Appellant has filed a combined motion for reconsideration and motion for
reconsideration en banc (Docket Entry No. 21). The court has reviewed the
motion, appellant’s Fed. R. App. P. 28(j) letter, and appellee’s response.
The motion for reconsideration is denied and the motion for reconsideration
en banc is denied on behalf of the court. See 9th Cir. R. 27-10; 9th Cir. Gen. Ord.
6.11.

App. 1a

Case: 19-55317, 02/06/2020, ID: 11588391, DktEntry: 20, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
FEB 6 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

JUSTIN KIRK GRAVES,
Petitioner-Appellant,
v.
DAVID SHINN, Director, Warden, United
States Penitentiary, Victorville,

No.

19-55317

D.C. No.
5:18-cv-01087-JVS-SP
Central District of California,
Riverside
ORDER

Respondent-Appellee.
Before:

FERNANDEZ, SILVERMAN, and TALLMAN, Circuit Judges.

Appellee’s motion for summary affirmance (Docket Entry No. 15) is
granted. See United States v. Hooton, 693 F.2d 857, 858 (9th Cir. 1982) (stating
standard); see also United States v. Herrold, 941 F.3d 173 (5th Cir. 2019) (en
banc).
AFFIRMED.

App. 2a

Case 5:18-cv-01087-JVS-SP Document 20 Filed 03/15/19 Page 1 of 1 Page ID #:220

1
2

JS-6

3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11

JUSTIN KIRK GRAVES,
Petitioner,

12
13
14
15

v.
DAVID SHINN, Warden,
Respondent.

16
17

) Case No. ED CV 18-1087-JVS (SP)
)
)
)
)
JUDGMENT
)
)
)
)
)

Pursuant to the Order Accepting Findings and Recommendation of United

18 States Magistrate Judge With Modification,
19

IT IS HEREBY ADJUDGED that the Petition is denied, and this action is

20 dismissed with prejudice.
21
22 Dated: March 15, 2019
23
24
25

_______________________________
HONORABLE JAMES V. SELNA
UNITED STATES DISTRICT JUDGE

26
27
28

App. 3a

Case 5:18-cv-01087-JVS-SP Document 19 Filed 03/15/19 Page 1 of 2 Page ID #:218

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11

JUSTIN KIRK GRAVES,

12
13
14

Petitioner,
v.
DAVID SHINN, Warden,

15
16

Respondent.
___________________________

)
)
)
)
)
)
)
)
)
)
)

Case No. ED CV 18-1087-JVS (SP)
ORDER ACCEPTING FINDINGS AND
RECOMMENDATION OF UNITED
STATES MAGISTRATE JUDGE,
WITH MODIFICATION

17
18

Pursuant to 28 U.S.C. § 636, the Court has reviewed the Petition, records on

19 file, and the Report and Recommendation of the United States Magistrate Judge.
20 Further, the Court has engaged in a de novo review of those portions of the Report to
21 which petitioner has objected. The Court accepts the findings and recommendations
22 of the Magistrate Judge, except as follows.
23

The Report and Recommendation recommends the Petition be recharacterized

24 as a 28 U.S.C. § 2255 motion and transferred to the United States District Court for
25 the Northern District of Texas. The Magistrate Judge reasoned that although it
26 appears any § 2255 motion would be time-barred, petitioner’s Reply suggested he
27 may seek a time waiver from the government; thus, the interest of justice weighed in
28 favor of transfer.

App. 4a

Case 5:18-cv-01087-JVS-SP Document 19 Filed 03/15/19 Page 2 of 2 Page ID #:219

1

In petitioner’s objections, however, petitioner states the government has not

2 indicated its willingness to waive the timeliness bar, so a transfer to the Northern
3 District of Texas would be futile. Petitioner requests that, if the Court will not allow
4 him to proceed with his Petition under 28 U.S.C. § 2255(e)’s saving clause, the
5 court deny the Petition so he can pursue his claim on appeal. In light of these
6 representations in the objections, the interest of justice no longer weighs in favor of
7 transfer of the untimely § 2255 motion. But this Court continues to lack jurisdiction
8 for the reasons stated in the Report and Recommendation.
9

IT IS THEREFORE ORDERED that respondent’s Motion to Dismiss or

10 Transfer (docket no. 13) is granted, and Judgment be entered denying the Petition
11 and dismissing this action with prejudice.
12
13
14 DATED: March 15, 2019

______________________________
HONORABLE JAMES V. SELNA
UNITED STATES DISTRICT JUDGE

15
16
17
18
19
20
21
22
23
24
25
26
27
28
2

App. 5a

Case 5:18-cv-01087-JVS-SP Document 18 Filed 03/15/19 Page 1 of 3 Page ID #:215

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11

JUSTIN KIRK GRAVES,
Petitioner,

12
v.

13
14

DAVID SHINN, Warden,

15

Respondent.
__________________________

16
17

) Case No. ED CV 18-1087-JVS (SP)
)
)
) ORDER GRANTING A CERTIFICATE
) OF APPEALABILITY
)
)
)
)
)

Rule 11 of the Rules Governing Section 2255 Proceedings for the United

18 States District Courts reads as follows:
19

(a)

Certificate of Appealability. The district court must

20

issue or deny a certificate of appealability when it enters a final order

21

adverse to the applicant. Before entering the final order, the court

22

may direct the parties to submit arguments on whether a certificate

23

should issue. If the court issues a certificate, the court must state the

24

specific issue or issues that satisfy the showing required by 28 U.S.C.

25

§ 2253(c)(2). If the court denies a certificate, a party may not appeal

26

the denial but may seek a certificate from the court of appeals under

27

Federal Rule of Appellate Procedure 22. A motion to reconsider a

28

denial does not extend the time to appeal.
1
App. 6a

Case 5:18-cv-01087-JVS-SP Document 18 Filed 03/15/19 Page 2 of 3 Page ID #:216

1

(b)

Time to Appeal. Federal Rule of Appellate Procedure

2

4(a) governs the time to appeal an order entered under these rules. A

3

timely notice of appeal must be filed even if the district court issues a

4

certificate of appealability. These rules do not extend the time to

5

appeal the original judgment of conviction.

6 Although petitioner styled this case as a petition for writ of habeas corpus under 28
7 U.S.C. § 2241, not as a 28 U.S.C. § 2255 motion, a Certificate of Appealability is
8 nonetheless required for petitioner to appeal the denial of his Petition, because the
9 Petition in fact attacked petitioner’s underlying sentence, and the Court
10 recharacterized it as a § 2255 motion. See Porter v. Adams, 244 F.3d 1006, 1007
11 (9th Cir. 2001).
12

Under 28 U.S.C. § 2253(c)(2), a Certificate of Appealability may issue “only

13 if the applicant has made a substantial showing of the denial of a constitutional
14 right.” The Supreme Court has held that this standard means a showing that
15 “reasonable jurists could debate whether (or, for that matter, agree that) the petition
16 should have been resolved in a different manner or that the issues presented were
17 adequate to deserve encouragement to proceed further.” Slack v. McDaniel, 529
18 U.S. 473, 483-84, 120 S. Ct. 1595, 146 L. Ed. 2d 542 (2000) (internal quotation
19 marks omitted, citation omitted).
20

Two showings are required “[w]hen the district court denies a habeas

21 petition on procedural grounds without reaching the prisoner’s underlying
22 constitutional claim.” Slack, 529 U.S. at 484. In addition to showing that “jurists
23 of reason would find it debatable whether the petition states a valid claim of the
24 denial of a constitutional right,” the petitioner must also make a showing that
25 “jurists of reason would find it debatable whether the district court was correct in
26 its procedural ruling.” Id. As the Supreme Court further explained:
27

Section 2253 mandates that both showings be made before the court

28

of appeals may entertain the appeal. Each component of the § 2253(c)
2
App. 7a

Case 5:18-cv-01087-JVS-SP Document 18 Filed 03/15/19 Page 3 of 3 Page ID #:217

1

showing is part of a threshold inquiry, and a court may find that it can

2

dispose of the application in a fair and prompt manner if it proceeds

3

first to resolve the issue whose answer is more apparent from the

4

record and arguments.

5 Id. at 485.
6

Here, the Court has dismissed the Petition for lack of jurisdiction, finding

7 the requirements of the savings clause in 28 U.S.C. § 2255(e) are not met. After
8 duly considering petitioner’s contentions in support of his argument that he meets
9 the conditions for the savings clause, including in his objections to the Report and
10 Recommendation, the Court finds and concludes that petitioner has made the
11 requisite showing with respect to whether this Court is correct that petitioner does
12 not meet the savings clause requirements to bring his Petition in this district under
13 28 U.S.C. § 2241, and also finds petitioner has made the requisite showing with
14 respect to whether he states a valid claim for relief.
15

Therefore, pursuant to 28 U.S.C. § 2253(c)(2) and Rule 11 of the Rules

16 Governing Section 2255 Proceedings, a Certificate of Appealability is GRANTED.
17
18 Dated: March 15, 2019
19
20

_______________________________

21

HONORABLE JAMES V. SELNA
UNITED STATES DISTRICT JUDGE

22
23 Presented by:
24

_________________________
25 Sheri Pym
United States Magistrate Judge
26
27
28
3
App. 8a

Case 5:18-cv-01087-JVS-SP Document 15 Filed 02/12/19 Page 1 of 14 Page ID #:192

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11 JUSTIN KIRK GRAVES,
12
13
14
15
16

Petitioner,
v.
DAVID SHINN, Warden,
Respondent.

17
18

)
)
)
)
)
)
)
)
)
)
)
)

Case No. ED CV 18-1087-JVS (SP)
REPORT AND
RECOMMENDATION OF UNITED
STATES MAGISTRATE JUDGE

This Report and Recommendation is submitted to the Honorable

19 James V. Selna, United States District Judge, pursuant to the provisions of 28
20 U.S.C. § 636 and General Order 05-07 of the United States District Court for the
21 Central District of California.
22

I.

23

INTRODUCTION

24

On May 23, 2018, petitioner Justin Kirk Graves filed a corrected Petition for

25 Writ of Habeas Corpus by a Person in Federal Custody under 28 U.S.C. § 2241
26 (“Petition”), challenging his 2011 sentence for his conviction for being a felon in
27 possession of a firearm in the United States District Court for the Northern District
28
1
App. 9a

Case 5:18-cv-01087-JVS-SP Document 15 Filed 02/12/19 Page 2 of 14 Page ID #:193

1 of Texas. Petitioner claims that he is actually innocent of his predicate offenses
2 and is therefore serving an illegal sentence.
3

Respondent moved to dismiss or transfer the Petition, arguing that petitioner

4 waived his right to collaterally attack his sentence and even if the right is not
5 waived, the court should treat the Petition as a motion under 28 U.S.C. § 2255 and
6 dismiss or transfer it for lack of jurisdiction. For the reasons discussed below, the
7 court finds petitioner did not waive his right to collaterally attack his sentence in
8 this instance, but agrees that this court lacks jurisdiction. It is therefore
9 recommended that the Petition be construed as a § 2255 motion and transferred to
10 the United States District Court for the Northern District of Texas.
11

II.

12

PROCEEDINGS

13

On or about August 17, 2011, in the United States District Court for the

14 Northern District of Texas, petitioner pled guilty to being a convicted felon in
15 possession of a firearm in violation of 18 U.S.C. § 922(g)(1). Petition, Exs. B-C.
16 As part of his binding plea agreement, petitioner admitted he had been previously
17 convicted of at least three violent felonies – escape and two burglaries1 – in 2005,
18 thereby making him subject to an enhanced sentence under the Armed Career
19 Criminal Act (“ACCA”), 18 U.S.C. § 924(e). Id. Petitioner agreed to waive any
20 right to appeal or to contest the judgment in a post-conviction proceeding,
21 reserving only the right to appeal any punishment imposed in excess of the
22 statutory maximum and any claim based on ineffective assistance of counsel. Id.,
23 Ex. B, ¶ 11. In exchange, the prosecutor agreed the appropriate sentence was the
24
25

1

Both petitioner and respondent acknowledge the Presentence Report
26 (“PSR”) does not reference a Texas penal code section. Petition at 2 n.3; MTD at
27 10 n.2. Petitioner contends the language in the PSR mirrors Texas Penal Code
§ 30.02(a)(1). Petition at 2 n.3.
28
2
App. 10a

Case 5:18-cv-01087-JVS-SP Document 15 Filed 02/12/19 Page 3 of 14 Page ID #:194

1 statutory minimum under the ACCA, 180 months in prison. Id., Ex. B at ¶ 4.
2 Without the ACCA enhancement, the statutory maximum sentence would have
3 been ten years. See Petition at 2; 18 U.S.C. § 924(a)(2).
4

On December 8, 2011, the district court accepted the plea agreement and

5 imposed a sentence of 180 months. Id., Ex. D. Petitioner did not appeal the
6 conviction or sentence, and both became final on December 22, 2011. Petitioner
7 did not file a post-conviction petition before the statute of limitations expired on
8 December 22, 2012.
9

Petitioner filed the instant Petition on May 22, 2018. At the time he was

10 housed in the United States Penitentiary at Victorville, California. On August 22,
11 2018, respondent filed a Motion to Dismiss or Transfer the Petition on the grounds
12 that petitioner waived his right to collaterally attack his sentence and the court
13 lacks jurisdiction over the matter. Petitioner filed a Reply to the Motion to Dismiss
14 on September 14, 2018.
15

III.

16

DISCUSSION

17

Petitioner seeks to challenge his sentence with a § 2241 habeas petition.

18 Petitioner contends he filed a proper § 2241 habeas petition because his case falls
19 under 28 U.S.C. § 2255(e)’s narrow exception, the so-called escape hatch or
20 savings clause. Specifically, petitioner argues that § 2255 is “‘inadequate or
21 ineffective to test the legality of his detention,’” and he qualifies to seek relief
22 under the escape hatch because he has claims of actual innocence and has not had
23 an unobstructed procedural shot at making those claims. Petition at 3.
24

At the time of the plea agreement, both burglary under Texas Penal Code

25 § 30.02(a)(1) and escape were considered predicate offenses under ACCA. Fifth
26 Circuit precedent dictated that burglary under Texas Penal Code § 30.02(a)(1) was
27 generic burglary. See U.S. v. Silva, 957 F.2d 157, 162 (5th Cir. 1992). Several
28
3
App. 11a

Case 5:18-cv-01087-JVS-SP Document 15 Filed 02/12/19 Page 4 of 14 Page ID #:195

1 months after the plea agreement was executed, the Fifth Circuit reaffirmed that
2 holding in United States v. Eddins, 451 Fed. Appx. 395, 396-97 (5th Cir. 2011),
3 and later further held that Texas Penal Code § 30.02(a) was a divisible statute.2
4 See U.S. v. Uribe, 838 F.3d 667, 671 (5th Cir. 2016). In 2018, in light of Mathis v.
5 United States, __ U.S. __, 136 S. Ct. 2243, 195 L. Ed. 2d 604 (2016), the Fifth
6 Circuit reversed its previous holdings. Herrold, 883 F.3d at 537. It held that
7 burglary under § 30.02(a)(3) is broader than generic burglary and §§ 30.02(a)(1)
8 and (a)(3) are indivisible. Id. Accordingly, petitioner’s burglary convictions under
9 § 30.02(a)(1) may no longer serve as predicate offenses for an ACCA
10 enhancement. Id.
11

As for escape, at the time of the plea agreement, the Fifth Circuit held that a

12 federal escape statute similar to the Texas escape statute was a crime of violence
13 under the residual clause of ACCA. See U.S. v. Hughes, 602 F.3d 669, 676-77 (5th
14 Cir. 2010); compare Texas Penal Code § 38.06. Subsequently, the Supreme Court
15 issued Johnson v. United States, __ U.S. __, 135 S. Ct. 2551, 192 L. Ed. 2d 569
16 (2015), which held that the residual clause of ACCA was unconstitutional.
17

Petitioner contends that post-Herrold and Johnson, neither his two burglary

18 convictions under Texas Penal Code § 30.02(a)(1) nor his escape conviction are
19 predicate offenses under ACCA. Accordingly, petitioner contends he is actually
20 innocent of his sentence enhancement because his current sentence, which exceeds
21 the statutory maximum that applies without the ACCA enhancement, is illegal.
22
23
24
25

2

A divisible statute sets forth “separate elements, effectively defining distinct
26 offenses,” while an indivisible statute “sets forth alternative means of committing a
27 single substantive crime.” U.S. v. Herrold, 883 F.3d 517, 521 (5th Cir. 2018) (en
banc).
28
4
App. 12a

Case 5:18-cv-01087-JVS-SP Document 15 Filed 02/12/19 Page 5 of 14 Page ID #:196

1 A.

Petitioner Did Not Waive His Right to Collaterally Attack His Sentence

2

Respondent argues the Petition should be dismissed because petitioner

3 knowingly and voluntarily waived his right to collaterally attack his sentence in his
4 plea agreement. MTD at 5-6. In the plea agreement, petitioner agreed not to
5 appeal or “contest his conviction and/or sentence in any post-conviction
6 proceeding, including, but not limited to, a proceeding under 28 U.S.C. §§ 2241
7 and 2255.” Petition, Ex. B ¶ 11. Petitioner reserved only the right to appeal any
8 punishment imposed in excess of the statutory maximum and any claim based on
9 ineffective assistance of counsel. Id.
10

“Principles of contract law control [the] interpretation of a plea agreement,”

11 and a defendant’s waiver of his rights to appeal or collaterally attack a plea
12 agreement are generally enforced if the waiver was knowingly and voluntarily
13 made. Davies v. Benov, 856 F.3d 1243, 1246-47 (9th Cir. 2017). Changes in
14 subsequent law – e.g., change in guidelines – do not render a waiver invalid so
15 long as the waiver was knowing when made. See U.S. v. Eastwood, 148 Fed.
16 Appx. 589, 591 (9th Cir. 2005) (waiver is enforceable despite changes in
17 sentencing law holding that guidelines were merely advisory). Nonetheless, the
18 waiver does not apply if: (1) a defendant’s guilty plea failed to comply with Rule
19 11 of the Federal Rules of Criminal Procedure; (2) the sentencing court informed
20 the defendant he or she retained the right to appeal; (3) the sentence does not
21 comport with the terms of the plea agreement; or (4) the sentence violates the law.
22 U.S. v. Bibler, 495 F.3d 621, 624 (9th Cir. 2007). “A sentence is illegal if it
23 exceeds the permissible statutory penalty for the crime or violates the
24 Constitution.” Id.
25

Here, petitioner does not contest that he knowingly and voluntarily entered

26 into the plea agreement. Instead, petitioner argues the waiver is not valid because
27 his sentence is illegal. Petitioner concedes that when he entered into the plea
28
5
App. 13a

Case 5:18-cv-01087-JVS-SP Document 15 Filed 02/12/19 Page 6 of 14 Page ID #:197

1 agreement, his 15-year sentence was legal. See Petition at 1. Petitioner contends,
2 however, that following Herrold and Johnson, his burglary and escape convictions
3 are no longer predicates for an ACCA sentence enhancement, and without the
4 ACCA enhancement the maximum sentence is ten years. Id. at 2, 4-7. Petitioner’s
5 15-year sentence is in excess of the statutory maximum and is therefore illegal.3
6 Reply at 3. Accordingly, petitioner contends, the waiver no longer applies. See
7 Petition at 8; Reply at 3.
8

The question is whether an appeal waiver applies when there is an

9 intervening change in law that renders a sentence that was legal when the plea
10 agreement was executed now illegal. In United States v. Torres, 828 F.3d 1113
11 (9th Cir. 2016), the Ninth Circuit addressed this issue. The petitioner in Torres,
12 with a limited exception, waived his rights to appeal and collaterally attack his
13 sentence. Id. at 1124. Subsequently, the Supreme Court issued Johnson, 135 S.
14 Ct. 2551, which held the residual clause of ACCA unconstitutional. The petitioner
15 appealed his sentence, arguing that his sentence enhancement, which contained an
16 identically worded residual clause, was likewise unconstitutional. Torres, 828
17 F.3d at 1123. Without the sentence enhancement, his sentencing range would be
18 33-41 months, as opposed to the 92-month sentence he received. See id. at 1124.
19 Because the respondent conceded that Johnson would apply to the enhancement
20 statute petitioner was sentenced under, the Ninth Circuit had only to determine
21 whether the appeal was precluded by the waiver. See id. at 1124-25. The Ninth
22 Circuit held the waiver did not bar the appeal because petitioner’s sentence was
23 illegal. Id. at 1125; see also, e.g., U.S. v. Savage, 231 F. Supp. 3d 542, 549 (C.D.
24 Cal. 2017) (petitioner’s waiver was not enforceable because the sentence
25 subsequently became illegal); but see Slusser v. U.S., 895 F.3d 437, 439-40 (6th
26
27
28

3

Respondent reserves the rights to respond to petitioner’s substantive
arguments. MTD at 10 n.2.
6
App. 14a

Case 5:18-cv-01087-JVS-SP Document 15 Filed 02/12/19 Page 7 of 14 Page ID #:198

1 Cir. 2018) (cert. docketed) (because petitioner had waived his right to collaterally
2 attack his sentence, the court declined to reach the merits of petitioner’s claim that
3 his sentence was illegal since his conviction was no longer an ACCA predicate
4 offense after Johnson). District courts in this Circuit have held Torres applies
5 equally to collateral attacks. See U.S. v. Johnson, 2016 WL 6681184, at *2 (N.D.
6 Cal. Nov. 3, 2016) (Torres was not limited to the appellate setting); Jennings v.
7 U.S., 2016 WL 4376778, at *2 (W.D. Wash. Aug. 17, 2016) (applying Bibler and
8 Torres to collateral attacks and finding waiver did not bar the § 2255 motion
9 because petitioner, who was sentenced under a statute that was later to be found
10 unconstitutionally vague, had a sentence that exceeded the statutory maximum and
11 was illegal).
12

Accordingly, the waiver in the plea agreement does not bar petitioner from

13 collaterally attacking his sentence because, with the changes in law effected by
14 Herrold and Johnson, the sentence exceeds the statutory maximum and is therefore
15 illegal.
16 B.

This Court Lacks Jurisdiction

17

Respondent argues dismissal is also required for lack of subject matter

18 jurisdiction. MTD at 6-7. Specifically, respondent contends the Petition is
19 actually a disguised § 2255 motion, which this court does not have jurisdiction to
20 evaluate, and the savings clause is not available to petitioner. Id. at 6-12.
21

Section 2255 allows a federal prisoner claiming that his sentence was

22 imposed “in violation of the Constitution or laws of the United States” to “move
23 the court which imposed the sentence to vacate, set aside or correct the sentence.”
24 28 U.S.C. § 2255(a). “Generally, motions to contest the legality of a sentence must
25 be filed under § 2255 in the sentencing court, while petitions that challenge the
26 manner, location, or conditions of a sentence’s execution must be brought pursuant
27 to § 2241 in the custodial court.” Hernandez v. Campbell, 204 F.3d 861, 864 (9th
28
7
App. 15a

Case 5:18-cv-01087-JVS-SP Document 15 Filed 02/12/19 Page 8 of 14 Page ID #:199

1 Cir. 2000) (per curiam). A prisoner may not bring a second or successive § 2255
2 motion in district court without first seeking and obtaining certification from “a
3 panel of the appropriate court of appeals.” 28 U.S.C. § 2255(h); Harrison v.
4 Ollison, 519 F.3d 952, 955 (9th Cir. 2008). Only the sentencing court has
5 jurisdiction over a § 2255 motion. Hernandez, 204 F.3d at 865; Tripati v. Henman,
6 843 F.2d 1160, 1163 (9th Cir. 1988).
7

There is, however, an exception – a “savings clause” or “escape hatch” – to

8 the general rule. Harrison, 519 F.3d at 956; Hernandez, 204 F.3d at 864 n.2;
9 Lorentsen v. Hood, 223 F.3d 950, 953 (9th Cir. 2000). A federal prisoner may file
10 a habeas petition under § 2241 to challenge the legality of a sentence “if, and only
11 if, the remedy under § 2255 is ‘inadequate or ineffective to test the legality of his
12 detention.’” Marrero v. Ives, 682 F.3d 1190, 1192 (9th Cir. 2012) (citation
13 omitted); see 28 U.S.C. § 2255(e).
14

The exception under § 2255(e) is “narrow” and will not apply “merely

15 because § 2255’s gatekeeping provisions,” such as the statute of limitations or the
16 limitation on successive petitions, now prevent the courts from considering a
17 § 2255 motion. Ivy v. Pontesso, 328 F.3d 1057, 1059 (9th Cir. 2003); see also
18 Lorentsen, 223 F.3d at 953 (ban on unauthorized successive petitions does not per
19 se make § 2255 “inadequate or ineffective”); Moore v. Reno, 185 F.3d 1054, 1055
20 (9th Cir. 1999) (per curiam) (“[T]he dismissal of a successive § 2255 motion . . .
21 does not render federal habeas relief an ineffective or inadequate remedy). A
22 petition meets the “escape hatch” criteria of § 2255(e) “when a petitioner (1) makes
23 a claim of actual innocence, and (2) has not had an unobstructed procedural shot at
24 presenting that claim.” Harrison, 519 F.3d at 959 (internal quotation marks and
25 citation omitted); accord Marrero, 682 F.3d at 1192.
26

Here, petitioner is contesting the legality of his sentence. Accordingly, his

27 challenge must be filed in a § 2255 motion in the sentencing court – the United
28
8
App. 16a

Case 5:18-cv-01087-JVS-SP Document 15 Filed 02/12/19 Page 9 of 14 Page ID #:200

1 States District Court Northern District of Texas – unless he meets the criteria for
2 the savings clause. Petitioner maintains he qualifies for the savings clause because
3 he is actually innocent of the sentencing enhancement and has not had an
4 unobstructed procedural shot at raising his claim. Petition at 3-8
5

1.

Actual Innocence

6

“In this circuit, a claim of actual innocence for purposes of the escape hatch

7 of § 2255 is tested by the standard articulated by the Supreme Court in Bousley v.
8 United States, 523 U.S. 614, 623, 118 S. Ct. 1604, 140 L. Ed. 2d 828 (1998).”
9 Marrero, 682 F.3d at 1193 (internal quotation marks, brackets, and citation
10 omitted). There, the Supreme Court held that “‘actual innocence’ means factual
11 innocence, not mere legal insufficiency.” Bousley, 523 U.S. at 623. The Ninth
12 Circuit has “not yet resolved the question whether a petitioner may ever be actually
13 innocent of a noncapital sentence for the purpose of qualifying for the escape
14 hatch,” but it has noted that other circuit courts agree that “a petitioner generally
15 cannot assert a cognizable claim of actual innocence of a noncapital sentencing
16 enhancement.” Marrero, 682 F.3d at 1193 (citations omitted); see McCarthan v.
17 Dir. of Goodwill Indus.-Suncoast, Inc., 851 F.3d 1076 (11th Cir. 2017) (“a change
18 in caselaw does not make a [§ 2255] motion . . . ‘inadequate or ineffective to test
19 the legality of his detention’”; instead a § 2255 motion is designed to remedy cases
20 in which the sentences exceeded that statutory maximum) (citation omitted); In re
21 Bradford, 660 F.3d 227, 230 (5th Cir. 2011) (a claim of actual innocence of a
22 career offender enhancement is not the type of claim that warrants review under §
23 2241).
24

Even so, the Ninth Circuit has also recognized that some circuits have found

25 exceptions to this general rule so as to “suggest[] that a petitioner may qualify for
26 the escape hatch if he received a sentence for which he was statutorily ineligible.”
27 Marrero, 612 F.3d at 1194 (citations omitted); see U.S. v. Wheeler, 886 F.3d 415,
28
9
App. 17a

Case 5:18-cv-01087-JVS-SP Document 15 Filed 02/12/19 Page 10 of 14 Page ID #:201

1 429 (4th Cir. 2018) (“§ 2255 is inadequate and ineffective to test the legality of a
2 sentence when: (1) at the time of sentencing, settled law of this circuit or the
3 Supreme Court established the legality of the sentence; (2) subsequent to the
4 prisoner’s direct appeal and first § 2255 motion, the aforementioned settled
5 substantive law changed and was deemed to apply retroactively on collateral
6 review; (3) the prisoner is unable to meet the gatekeeping provisions of
7 § 2255(h)(2) for second or successive motions; and (4) due to this retroactive
8 change, the sentence now presents an error sufficiently grave to be deemed a
9 fundamental defect.”); Hill v. Masters, 836 F.3d 591, 595 (6th Cir. 2016) (a
10 petitioner can use a § 2241 petition to challenge his sentence enhancement if he
11 can show “(1) a case of statutory interpretation, (2) that is retroactive and could not
12 have been invoked in the initial § 2255 motion, and (3) that the misapplied
13 sentence presents an error sufficiently grave to be deemed a miscarriage of justice
14 or a fundamental defect”); Brown v. Caraway, 719 F.3d 583, 586 (7th Cir. 2013)
15 (same).
16

Thus, it is possible that petitioner’s sentencing error claim could be

17 considered an actual innocence claim that would qualify for the escape hatch, but
18 the matter is not yet settled in the Ninth Circuit. Subsequent to Marrero, the Ninth
19 Circuit had several opportunities to address the open question but continued to
20 decline to do so. See Green v. Johnson, 744 Fed. Appx. 413, 413 (9th Cir. 2018)
21 (noting it had not previously held whether a petitioner “can sustain a claim of
22 actual innocence of an enhanced sentence” and did not need to do so in this case);
23 Dorise v. Matevousian, 692 Fed. Appx. 864, 865 (9th Cir. 2017) (recognizing that
24 it was an open issue whether a petitioner may be actually innocent of a noncapital
25 sentence for the purpose of qualifying for the escape hatch but declining to reach
26 the question); Ezell v.U.S., 778 F.3d 762, 765 n.3 (9th Cir. 2015) (court did not
27 “consider or foreclose the possibility that someone who was sentenced under an
28
10
App. 18a

Case 5:18-cv-01087-JVS-SP Document 15 Filed 02/12/19 Page 11 of 14 Page ID #:202

1 erroneous interpretation of the ACCA might obtain relief via 28 U.S.C. §§ 2241
2 and 2255(e)”).
3

Here, this court need not determine whether petitioner’s claim may be fairly

4 characterized as an actual innocence claim because, in any event, petitioner does
5 not meet the second prong of the requirements to fall within § 2255(e)’s savings
6 clause.
7

2.

Unobstructed Procedural Shot

8

Petitioner argues he did not have an unobstructed shot at presenting his

9 claims. Petition at 4-7. Petitioner asserts that although, following the 2015
10 Johnson decision, he could have challenged the legality of his escape conviction
11 operating as a predicate offense under ACCA, doing so would have been futile
12 because the government would have argued that any error was harmless due to a
13 third burglary conviction that could have substituted as a qualifying offense.4 Id. at
14 5-6. And when Herrold was decided in 2018, the statute of limitations for raising a
15 Johnson claim had already run. Id. Further, petitioner contends that because
16 Herrold is a Fifth Circuit decision, it did not restart the statute of limitations and a
17 § 2255 motion therefore would be time-barred. Id. at 6-7.
18

To demonstrate that he never had an “unobstructed procedural shot,” a

19 petitioner must show that he never had an opportunity to raise the claim of actual
20 innocence on appeal or in a § 2255 motion. See Harrison, 519 F.3d at 960. In
21 making this determination, the court considers “(1) whether the legal basis for
22 petitioner’s claim did not arise until after he had exhausted his direct appeal and
23 first § 2255 motion; and (2) whether the law changed in any way relevant to
24 petitioner’s claim after that first § 2255 motion.” Id. (internal quotation marks and
25 citation omitted).
26
27
28

4

Petitioner did not admit to a third burglary conviction but the PSR
documented such conviction. See PSR at 6-7.
11
App. 19a

Case 5:18-cv-01087-JVS-SP Document 15 Filed 02/12/19 Page 12 of 14 Page ID #:203

1

Here, petitioner correctly asserts there have been changes in law relevant to

2 petitioner’s claims, but petitioner is unable to show the changes occurred after he
3 had already filed a § 2255 motion. See id.; Fishman v. Ponce, 2017 WL 4119600,
4 at *4 (C.D. Cal. Sept. 15, 2017) (the escape hatch “applies only to claims asserting
5 factual innocence predicated upon a legal change that occurs after a petitioner files
6 his or her first Section 2255 motion”); Dye v. U.S., 2015 WL 4480339, at *2 (C.D.
7 Cal. Jul. 20, 2015) (“Petitioner cannot seek relief under § 2255’s savings clause
8 unless he already filed a § 2255 motion that was denied.”); Blanche v. U.S., 2015
9 WL 391724, at *3 (C.D. Cal. Jan. 27, 2015) (same); Garcia-Jacobo v. Ives, 2016
10 WL 3965207 (D. Or. Jul. 22, 2016) (“[T]he Ninth Circuit has permitted use of the
11 savings clause where the controlling [] law has changed years after a petitioner’s
12 conviction has become final,” but, in those cases, “the petitioners had previously
13 appealed their cases and filed § 2255 motions.”).
14

Petitioner here has never filed a § 2255 motion. Although petitioner

15 contends filing a § 2255 motion would be futile because the statute of limitations
16 has run (Petition at 6-7), the mere fact that it may be time-barred is insufficient to
17 invoke the savings clause. See Reyes-Ponce v. Sanders, 2012 WL 4208053 at *3
18 (C.D. Cal. Aug. 24, 2012) (“[T]he savings clause does not apply simply because a
19 claim, which could have been brought in a § 2255 motion, is effectively precluded
20 because [such] motion would be barred as untimely.”); Cabbagestalk v. Quintana,
21 2011 WL 672534 at *2 (C.D. Cal. Jan. 12, 2011) (same); Owens v. Sanders, 2010
22 WL 97985 at *4, n.1 (C.D. Cal. Jan. 11, 2010) (“The mere fact that Petitioner may
23 be barred from filing a successive or untimely § 2255 motion, taken alone, is not
24 sufficient to invoke the savings clause.”). In short, that “§ 2255’s gatekeeping
25 provisions” may now prevent consideration of a § 2255 motion does not mean
26 petitioner never had an unobstructed procedural shot to raise his claim. See Ivy,
27 328 F.3d at 1059.
28
12
App. 20a

Case 5:18-cv-01087-JVS-SP Document 15 Filed 02/12/19 Page 13 of 14 Page ID #:204

1

Petitioner’s reliance on Alaimalo v. U.S, 645 F.3d 1042 (9th Cir. 2011), is

2 unavailing. In Alaimalo, the Ninth Circuit stated that a claim was unavailable to
3 the petitioner because controlling law in the circuit foreclosed the argument. See
4 id. at 1048. And the mere possibility that the Ninth Circuit would overrule its
5 previous holdings did not make the claim available to the petitioner for purposes of
6 § 2241. Id. Petitioner contends he similarly did not have an obstructed procedural
7 shot at raising his claim here because of the previous controlling Fifth Circuit
8 precedent. Reply at 11-12. Petitioner, however, ignores a key distinction between
9 his case and Alaimalo. In Alaimalo, the petitioner had first filed a § 2255 motion,
10 as required by the savings clause. See Alaimalo, 645 F.3d at 1046. In contrast,
11 petitioner here has not previously filed a § 2255 motion.
12

Accordingly, petitioner is not entitled to file a § 2241 petition under the

13 § 2255(e) savings clause. He may raise his challenge only in a § 2255 motion, and
14 only the sentencing court, the United States District Court for the Northern District
15 of Texas, has jurisdiction to consider a § 2255 motion by petitioner.
16 C.

The Interest of Justice Weighs in Favor of Recharacterization and

17

Transfer

18

The Court must therefore determine whether to recharacterize the Petition as

19 a § 2255 motion and transfer the action to the sentencing court, or simply dismiss
20 it. See 28 U.S.C. § 1631. Transfer is appropriate if three conditions are met: “(1)
21 the transferring court lacks jurisdiction; (2) the transferee could have exercised
22 jurisdiction at the time the action was filed; and (3) the transfer is in the interest of
23 justice.” Cruz-Aguilera v. I.N.S., 245 F.3d 1070, 1074 (9th Cir. 2001) (citing Kolek
24 v. Engen, 869 F.2d 1281, 1284 (9th Cir. 1989)). The first condition is met here, as
25 discussed above, as is the second. Because this would be petitioner’s first attempt
26 at seeking collateral relief in a § 2255 motion, it would not be subject to the
27 restriction of a second or successive motion.
28
13
App. 21a

Case 5:18-cv-01087-JVS-SP Document 15 Filed 02/12/19 Page 14 of 14 Page ID #:205

1

Whether the recharacterization and transfer of the Petition would be in the

2 interest of justice is less clear. Although petitioner’s claim appears to be facially
3 meritorious, petitioner’s time to file a § 2255 motion has already elapsed and thus
4 any § 2255 motion would be time-barred. The court recognizes, however, the
5 statute of limitations is not jurisdictional and may be waived by the government.
6 Petitioner’s Reply suggests that he may seek such a waiver from the government.
7 See Reply at 12 n.3. On balance, therefore, the because the only other option is
8 dismissal, the interest of justice weighs in favor of transfer.
9

IV.

10

RECOMMENDATION

11

IT IS THEREFORE RECOMMENDED that the District Court issue an

12 Order: (1) approving and accepting this Report and Recommendation; and (2)
13 granting respondent’s Motion to Dismiss or Transfer (docket no. 13) to the extent
14 that (a) the Petition be recharacterized as a § 2255 motion, and (b) the case be
15 transferred to the United States District Court for the Northern District of Texas.
16
17
18 DATED: February 12, 2019
19

SHERI PYM
United States Magistrate Judge

20
21
22
23
24
25
26
27
28
14
App. 22a

Case 5:11-cr-00042-C-BQ Document 35 Filed 12/08/11

Page 1 of 4 PageID 100

App. 23a

Case 5:11-cr-00042-C-BQ Document 35 Filed 12/08/11

Page 2 of 4 PageID 101

App. 24a

Case 5:11-cr-00042-C-BQ Document 35 Filed 12/08/11

Page 3 of 4 PageID 102

App. 25a

Case 5:11-cr-00042-C-BQ Document 35 Filed 12/08/11

Page 4 of 4 PageID 103

App. 26a

